CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

PO Box 7850
Ann Arbor, MI 48107
(734) 662-8200 • (800) 968-UMCU
UMCU.ORG

VISA PLATINUM CASH REWARDS

This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

12.99%

APR for Balance Transfers

12.99%

APR for Cash Advances

12.99%

Penalty APR and When it Applies

None

Paying Interest

Your due date is at least 27 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Foreign Transaction Fee
- Non-UMCU/Non-CO-OP
- Network ATM Transaction Fee
- Overdraft Protection Transfer Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Return Payment Fee

None
None
None
None
$5.00
None
None
1.00% of each transaction in U.S. dollars
$2.00
$2.00
Up to $35.00
None
None

How We Will Calculate Your Balance:
We use a method called “average daily balance (including new purchases).” See Your Account Agreement for more details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account Agreement.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 1 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

Military Lending Act Disclosure:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit card account).
Please call us at 1-800-968-8628 to receive oral disclosures of the Military Lending Act disclosure above and a description of the
payment obligation.
Cash Back Bonus for Visa Platinum Cash Rewards:
All purchases made will earn a cashback bonus. Cash advances, balance transfers, and transfers for overdraft do not earn the
cashback bonus. The Visa Platinum Cash Rewards cashback bonus rate is 1.10%. Credits for returned merchandise and credits
for disputed transactions will be deducted from the bonus total. The bonus will be paid at least annually and will be deposited
to a University of Michigan Credit Union share savings account. Any earned and unpaid cashback bonus will be forfeited upon
closure of the card. The Credit Union reserves the right to change or terminate the cashback bonus at any time.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a payment.
In the event You fail to make a payment on time in any of the six billing cycles following the initial violation, You will be charged
$35.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Late Payment Fee, the
fee will be charged to Your Account when You do not make the required minimum payment by or within the number of days of
the statement Payment Due Date set forth on this Disclosure.
Additional Card Fee:
$5.00. If Your Account is subject to an Additional Card Fee, a fee will be charged for each additional Card issued to Your
Account.
Non-UMCU/Non-CO-OP Network ATM Transaction Fee (Finance Charge):
If Your Account is subject to an ATM Fee, except as limited by applicable law, a fee may be charged to Your Account each time
you conduct a transaction at an ATM that is not a University of Michigan Credit Union or CO-OP Network ATM.
Overdraft Protection Transfer Fee (Finance Charge):
$2.00. If Your Account is subject to an Overdraft Protection Transfer Fee, the fee will be charged to Your Account each time an
overdraft advance occurs, subject to Your Agreement.
Returned Convenience Check Fee:
None.
Card Recovery Fee:
None.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$10.00. If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to Your
Account for each copy of a sales draft or statement that You request (except when the request is made in connection with a
billing error made by the Credit Union).
Emergency Card Replacement Fee:
None.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 2 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

Pay-by-Phone Fee:
$10.00. If Your Account is subject to the Pay-by-Phone Fee, except as limited by applicable law, a fee will be charged for each
time You make a payment by telephone as disclosed on this Disclosure.
PIN Replacement Fee:
None.
Rush Fee:
None.
Statement Copy Fee:
$5.00 per document. If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the
request is made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy
of a sales draft or statement that You request.
Unreturned Card Fee:
None.
Account Research Fee:
$30.00 per hour. Minimum of $30.00. If Your Account is subject to an Account Research Fee, except as limited by applicable law
and when the request is made in connection with a billing error made by the Credit Union, a fee calculated on an hourly basis
may be charged to Your Account each time you request your account to be researched.
Periodic Rates:
The Purchase APR is 12.99% which is a daily periodic rate of 0.0356%.
The Balance Transfer APR is 12.99% which is a daily periodic rate of 0.0356%.
The Cash Advance APR is 12.99% which is a daily periodic rate of 0.0356%.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Page 3 of 3

02107749-MXC10-C-1-043019 (MXC101-E)

